OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S 

EDUCATION ACTIVITIES 

AUDIT REPORT NO. 1-521-14-013-P
AUGUST 11, 2014




SAN SALVADOR, EL SALVADOR

Office of Inspector General


August 11, 2014

MEMORANDUM

TO:                  USAID/Haiti Mission Director, John Groarke

FROM:                Regional Inspector General/San Salvador, Van Nguyen /s/

SUBJECT:             Audit of USAID/Haiti’s Education Activities
                     (Report Number 1-521-14-013-P)


This memorandum transmits our final report on the subject audit. We considered your
comments on the draft report and included them, without annexes, in Appendix II of this report.

This report contains eight recommendations to help USAID/Haiti improve implementation of its
education activities. The mission made management decisions on all eight recommendations
and took final action on Recommendations 1 through 2 and 4 through 7. Please provide the
Audit Performance and Compliance Division in the USAID Office of the Chief Financial Officer
with the necessary documentation to achieve final action on the remaining recommendations.

Thank you and your staff for the cooperation and assistance extended to us during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     Development and Implementation of Contract Deliverables Were Consistently Late ............. 3 


     Reporting on Indicators and Targets Was Missing or Not Accurately Reported ..................... 5 


     USAID/Haiti Did Not Formally Notify Contractor of Poor Performance ................................... 7 


Evaluation of Management Comments..................................................................................... 9 


Appendix I—Scope and Methodology .................................................................................... 10 


Appendix II—Management Comments ................................................................................... 12 

SUMMARY OF RESULTS 

Improving Haiti’s education is a tremendous challenge. According to a UNESCO report on adult
and youth literacy, “Less than half of the Haitian adult population was able to read and write and
the youth literacy rate actually decreased between 2000 and 2010.” USAID has reported that
the majority of the population is younger than 24, and more than half never attended or did not
complete primary school. The Agency also has reported that despite the high demand for
schooling, education in Haiti is “characterized by weak state capacity to provide education
services and to govern the sector.” The weakness in the educational sector is “compounded by
teachers who are young, often poorly qualified, and lack experience. About 75 percent of all
teachers have only a 9th - to 12th-grade education, and often with no teacher training.”

In response to these challenges, on August 2, 2012, USAID/Haiti signed a $13 million firm-fixed
price contract with RTI International (RTI).1 The title of this activity is Tout Timoun Ap Li (Applied
Research Activity), referred to as TOTAL.2 The estimated period of performance is 2 years and
4 months, ending in December 2014. As of February 27, 2014, USAID/Haiti has obligated
$9 million and disbursed $8 million.

TOTAL’s objective is to help the Haitian Ministry of Education develop and test an instructional
model to improve the reading skills of children in first through third grades in Haiti’s development
corridors.3 Over the 2.4-year period, the project is to provide curricula that meet international
standards for best practice and respond to Haiti’s culture and students’ educational needs.

The audit objective was to determine whether USAID/Haiti’s education activities are achieving
their main goal of helping the Haitian Ministry of Education develop and test an instructional
model to improve the reading skills of children in first through third grades in the mission’s
development corridors.

The audit determined that the activities contributed to the development and testing of an
instructional model to improve the reading skills of children in first grade. RTI developed first-
grade French and Creole curriculum materials and distributed them to more than 300 schools in
the development corridors. Those schools were separated into two groups, Treatment 1 and
Treatment 2. The 225 Treatment 1 schools were to receive materials, teacher training, and
ongoing support. The 75 Treatment 2 schools were to receive the same assistance, and RTI
would provide additional community-based activities to support reading. USAID/Haiti planned to
compare the two groups and evaluate the overall impact of the project and community reading
activities at the end of 2 school years.

RTI also assessed student reading performance and school management effectiveness at the
schools, and it strengthened TOTAL through partnerships with other international and local
organizations. Feedback from principals and teachers during our site visits to 15 schools was
positive overall; teachers said the training was helpful and practical, and the first-grade
materials were useful.

1
  The contract is a completion task order under the Education Data for Decision Making (EdData II) 

blanket purchase agreement No. ECH-E-00-04-0004-00. 

2
  This means “All Children Reading” in Haitian Creole.

3
  USAID targets three areas of the country designated by the Haitian Government as “development 

corridors”: Cul-de-Sac, which includes the capital, Port-au-Prince; Northern; and St. Marc. 



                                                                                                    1
However, the project did not achieve all of its expected results—particularly with respect to
developing and testing an instructional model for children in the second and third grades—and
the project is significantly behind schedule to achieve its overall goals within the planned time
frames. For example, RTI did not distribute the first-grade curriculum and materials until late
March 2013—2 months past the deadline; second- and third-grade materials also were late
(page 3).

In addition, RTI did not implement community literacy strategies fully, and its monitoring of
teachers was weak. Implementation delays reduce USAID/Haiti‘s ability to assess and evaluate
the cost-effectiveness of various instructional approaches.

The audit team found other problems:

	 RTI’s reporting on indicators and targets was missing or not accurate (page 5).

	 USAID/Haiti did not formally notify RTI of poor performance (page 7).

To strengthen the project, we recommend that the mission:

1. 	 Clarify and document with RTI the mission’s specific expectations about further development
     of curricula and materials (page 5).

2. 	Require RTI to complete a staffing plan to confirm the project has employees with
    appropriate experience in curriculum materials development and implementation (page 5).

3. 	 Require RTI to implement a plan to mitigate the negative impact on the project’s research
     findings of not fully implementing community-based activities for Treatment 2 schools or
     conducting adequate ongoing teacher monitoring (page 5).

4. 	 In conjunction with RTI, implement a detailed work plan that links each of the contract’s
     performance requirements, standards, and deliverables to the milestone payment schedule
     (page 5).

5. 	 Work with RTI to review and revise as appropriate each of the 17 performance indicators,
     implement targets for each indicator, and instruct RTI in writing to collect data and report
     progress made against each of the performance indicators, including disaggregating data by
     development corridor and gender in quarterly progress reports (page 7).

6. 	 Instruct RTI in writing to implement procedures for recording accurate data for participants
     who successfully complete training (page 7).

7. 	 Complete the contractor performance assessment report (CPAR) for RTI in accordance with
     Automated Directive System (ADS), Section 302 (page 8).

8. 	Give RTI a written notice to implement a written plan that will correct the contract
    nonperformance issues in time to meet the delivery requirements of the contract (page 8).

Detailed findings follow. Appendix I describes the audit scope and methodology. Our evaluation
of USAID/Haiti’s management comments will appear on page 9, and the mission’s comments
will appear in Appendix ll.


                                                                                               2
AUDIT FINDINGS 

Development and Implementation of
Contract Deliverables Were
Consistently Late
According to ADS 202.3.6, monitoring the quality and timeliness of outputs produced by
implementing partners is a major mission responsibility. The outputs specifically described in
contracts are critical to achieving results, and delays in completing outputs or problems in output
quality may be signs that results will not be achieved as planned. Therefore, it is essential to
respond promptly to problems.

The contract specified that RTI must meet 26 performance requirements and 76 standards to
USAID/Haiti’s satisfaction. RTI also was to prepare and submit 37 deliverables by a certain date
to the mission’s contracting officer’s representative (COR). The COR had to approve and accept
each of the deliverables. The firm-fixed price contract with RTI also included a milestone
payment schedule for validating deliverables and services performed when reimbursing RTI for
costs incurred.

Despite the contract’s requirements, RTI completed only 13 of the 31 deliverables that were due
through March 31, 2014. Eleven were late, and seven have yet to be delivered. The following
key deliverables were not implemented as planned.

Reading Curriculum and Materials Were Not Delivered on Schedule. During the first year of
the project, RTI was to provide Haitian Creole and French first-grade textbooks, supplementary
materials, and teacher training materials to first and second grades in 200 of the 300 schools by
January 2013. According to the contract, giving textbooks to students in grades above the target
grade could help them because “those students will likely have had limited literacy instruction [in
earlier grades].” In the second year, 100 more schools were to receive the first-grade materials
before the beginning of the school year. In addition, RTI was to distribute the second-grade
curriculum and materials to second and third grades. However, the development and distribution
of curriculum and materials was not implemented as planned.

	 First-Grade Curriculum and Materials Were Distributed Late. In the first year of the
   project, RTI did not distribute first-grade curriculum and materials to the 200 schools until
   late March 2013—2 months past the deadline. During our visits to 15 of the schools,
   principals and teachers said they appreciated the materials, but several still had not
   received reading materials for each of their students; one classroom was not using the
   writing materials because there were not enough for the students to share.

	 Second- and Third-Grade Curriculum and Materials Were Not Developed. As of
   March 31, 2014, RTI had not developed and distributed second-grade curriculum and
   materials by the project’s original June 2013 deadline (subsequently amended to March 31,
   2014). RTI officials said they would not meet the deadline of developing third-grade
   materials by June 2014.

Late and Weak Implementation of Community-based Activities for Treatment 2 Schools.
During the first year of the project, RTI was to implement community-based activities in 75 of the


                                                                                                 3
200 schools. However, it did not implement many of the activities fully. For example, RTI did not
(1) develop report cards for teachers and parents that showed whether students’ reading skills
were improving, (2) hold literacy fairs at schools, (3) facilitate parent meetings, and (4) hold
weekly reading clubs as required. Other planned activities were dropped, including (1) Big-
Brother/Sister Reading Partners, (2) bookmaking workshops, and (3) initiating a radio listening
club. According to RTI, based on the lessons learned from the first year of the project, the plan
for implementing community-based activities for the second year was modified. However, RTI
officials said they are concerned about the implementation of many of these activities, and they
are working with their subcontractor to increase the pace of implementation and improve
reporting and information gathering.

During site visits to three Treatment 2 schools, we confirmed that, aside from the reading clubs
(that RTI conducted usually monthly, not weekly), principals and teachers were not familiar with
any of the other community-based activities.

Weak Implementation of Teacher Coaching. RTI’s subcontractor was required to conduct
nine visits to each of the 200 schools during the 2012-2013 school year to provide important
coaching and support to the teachers. However, the subcontractor only conducted an average
of three visits per school because of the delay in implementing the project. The subcontractor
also continued to underperform for the 2013-2014 school year, completing an average of four to
five visits per school through February 2014, whereas it was contracted to conduct eight visits
through the end of December 2013.

USAID/Haiti and RTI disagreed about the cause of the late teaching materials. Mission officials
said RTI’s staff lacked experience in developing the training materials, and some team
members had no experience in Haiti or did not speak French or Creole. This resulted, they said,
in poor-quality materials that required substantial revisions. RTI officials said the revisions were
needed because of a fundamental difference in expectations between USAID/Haiti and RTI.
They also contributed delays on the unknown Ministry of Education shifting needs and
expectations, the problems that exist in a challenging environment like Haiti’s, and the lack of
clarity in the definition of deliverables.

Mission officials said they did not ask for substantial revisions, but they did expect RTI to
provide deliverables that met basic standards. They pointed out examples such as (1) a
comprehensive training plan that was neither comprehensive nor a plan, (2) a capacity mapping
report with no mapping, (3) an annual report with no reporting on performance indicators, and
(4) instructional material based on repetition/memorization, lacking cultural appropriateness,
and not meeting international standards. USAID/Haiti officials said the expectations were
defined clearly in the contract, which required RTI to develop:

       Innovative, evidence-based student and teacher grade 1 Haitian Creole and
       French reading curricular materials that meet international standards for best
       practice literacy instruction and respond and are relevant to Haiti’s culture,
       development contexts, and children’s educational needs.

USAID/Haiti and RTI officials agreed that the subcontractor did not deliver many of the
community-based activities and did not provide ongoing mentoring of teachers. But they
disagreed on the root cause; RTI officials said they assigned the subcontractor to the project at
USAID/Haiti’s insistence, but mission officials said this was not true. The subcontractor simply
noted that it had a difficult working relationship with RTI.



                                                                                                  4
The project’s work plan may also have contributed to the project delays and differences in
USAID/Haiti and RTI expectations. While the contract was well written and clearly delineated
the results, requirements, and standards, the project did not have a work plan that linked
activities to deliverables and ultimately to the milestone payment schedule. Nearly 50 percent,
or 15 of the 37 deliverables, were not linked to the schedule. These consisted of key activities
such as training, community-based activities to be implemented in Treatment 2 schools, and
ongoing mentoring of teachers. Because RTI is reimbursed by USAID/Haiti only when it has
satisfactorily completed a milestone per the payment schedule, not clearly linking requirements,
standards, and deliverables to the schedule does not give for RTI the financial incentive to focus
its efforts on completing those activities.

These implementation problems put the project significantly behind schedule to achieve its
goals. The delays will make it difficult for USAID/Haiti to assess the instructional materials and
compare the progress of Treatment 1 to Treatment 2 schools. To correct these problems,
USAID/Haiti and RTI need to work together to clarify expectations and make sure that
appropriate personnel are in place to deliver quality materials and community–based activities.
Therefore, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Haiti clarify and document with RTI
   International the mission’s specific expectations regarding the further development of
   curricula and materials.

   Recommendation 2. We recommend that USAID/Haiti require RTI International to
   complete a staffing plan to confirm that the project has employees with appropriate
   experience in developing and implementing curriculum materials.

   Recommendation 3. We recommend that USAID/Haiti require RTI International to
   implement a plan to mitigate the negative impact on the project’s research findings of not
   fully implementing community-based activities for Treatment 2 schools or conducting
   adequate ongoing teacher monitoring.

   Recommendation 4. We recommend that USAID/Haiti in conjunction with RTI
   International implement a detailed work plan that links each of the contract’s
   performance requirements, standards, and deliverables to the milestone payment
   schedule.

Reporting on Indicators and Targets
Was Missing or Not Accurately Reported
According to ADS 203.3.2, performance monitoring is the “ongoing and routine collection of
performance indicator data to reveal whether desired results are being achieved and whether
implementation is on track.” Additionally, ADS 203.3.6 states that when selecting performance
indicators, “USAID Missions/Offices and Washington operating units should ensure that the
selected indicators will lead to performance monitoring data that meet the quality standards of
validity, integrity, precision, and reliability.”

According to the project’s performance monitoring plan (PMP), RTI was required to report data
for the performance indicators at least annually, and when data made it possible to update a
particular indicator, that update was to be reported to USAID in the relevant quarterly report. In
addition, data were to be disaggregated by gender and corridor when applicable.



                                                                                                5
RTI’s quarterly reports and annual report for August 2012 to September 2013 did not contain
any reporting against each of the 17 performance indicators established in the project’s PMP.
There has not been any periodic reporting of progress made against the indicators for fiscal
year 2014.

During the audit, RTI revised its annual report ending September 2013 and reported the
following results. However, the project still did not establish targets for all indicators in the
revised annual report.

     Status of Indicators per RTI’s Revised September 2013 Annual Report (Audited)
                                                                          Fiscal Year   Fiscal Year
                              Indicator
                                                                          2013 Target   2013 (Actual)
Number of standardized learning assessments supported by the U.S.
                                                                                  2             2
Government (USG)
Number of teachers who successfully completed in-service training or
                                                                                441           427
received intensive coaching or mentoring with USG support
Total number of person hours of teachers who successfully completed
in-service training or received intensive coaching or mentoring with         40,000        38,032
USG support
Number of textbooks and other teaching and learning materials
                                                                             61,682        33,249
provided with USG assistance
Number of learners receiving reading interventions at the primary level      15,500        16,980
Number of parent-teacher associations or similar "school" governance
                                                                                 75     no reporting
structures supported
Number of parents or community members who received training with
                                                                                750     no reporting
USG support
Number of students in schools benefiting from community literacy
                                                                              5,700     no reporting
strategies implemented with USG support
Percent of principals providing regular support to teachers               no target     no reporting
Percent of schools with increased inspector visits per semester           no target     no reporting
Percent of schools with improved opportunities to learn                   no target     no reporting
Percentage of teachers with improved reading instruction in subset of
                                                                          no target     no reporting
schools in the USG Development Corridors
Proportion of students who, by the end of two grades of primary
schooling, demonstrate that they can read and understand the meaning      no target     no reporting
of grade-level text
Number/Proportion of students with improved reading skills at the end
                                                                          no target     no reporting
of grade 1
Number/Proportion of students with improved reading skills at the end
                                                                          no target     no reporting
of grade 2
Number of officials and university and other partners trained in the
                                                                                 90            277
assessment of early grade learning
Number of administrators and officials successfully trained with USG
                                                                                230            218
support

The audit also found weaknesses in the controls RTI used to collect and report on the number
of teachers, administrators, and officials who successfully completed training offered by TOTAL.
For example, for a 2-week training activity, it was RTI’s practice to use the attendance sheet for
the day with the longest list of attendees and count them as participants who successfully
completed all of the training regardless of whether they did not attend all the sessions and were
not listed in the other attendance sheets. In some cases, attendance sheets were missing.


                                                                                                       6
Additionally, RTI did not always disaggregate data by corridor or gender as required.

These weaknesses occurred because, according to RTI officials, they focused their efforts on
developing materials and curriculum and did not consider reporting on progress against the
indicators to be a high priority. They said the contract was unclear as to how and when to report
against the indicators and added that USAID/Haiti did not ask them to include this in their
quarterly reports.

While the contract does not provide this level of specificity, the project’s PMP does require RTI
to report progress against the indicators at least annually and quarterly when possible. The
audit did note that the COR was monitoring the contractor’s performance and documented
incidents of faulty or nonconforming work, delays, and problems, including the need to report
progress against the indicators, at least annually.

RTI officials said they were developing a database and updating their data collection system to
provide better controls over data reporting.

Without reliable data and periodic reporting actual results compared to expected results, the
mission cannot measure the project’s progress toward objectives accurately, nor can officials
make informed decisions about how to make the project more effective. Therefore, we make the
following recommendations.

   Recommendation 5. We recommend that USAID/Haiti work with RTI International to
   review and revise as appropriate each of the 17 performance indicators, implement
   targets for each indicator, and instruct RTI International in writing to collect data and
   report progress made against each of the performance indicators, including
   disaggregating data by development corridor and gender in quarterly progress reports.

   Recommendation 6. We recommend that USAID/Haiti instruct RTI International in
   writing to implement procedures for recording accurate data for participants who
   successfully complete training.

USAID/Haiti Did Not Formally Notify
Contractor of Poor Performance
According to USAID’s Policy Guide for Assessment and Use of Contractor Performance and
Integrity Information, USAID is required to assess contractor performance using the Naval Sea
Logistics Center’s Contractor Performance Assessment Reporting System (CPARS). This is a
Web-based system used to enter data on contractor performance. Per the guide, the contracting
officer (CO) is “in charge of the overall contract execution and is responsible for the accurate
and timely review and processing of past performance evaluations in CPARS.” Also, the COR
assists the CO by “providing a timely and quality narrative.”

Contractor performance is assessed in CPARS (1) at least annually (for contracts and orders
exceeding 1 year in duration) and (2) on completion of the contract period of performance. In
addition, the guidance also points out:

       [Agreement officers] and [agreement officer’s representatives] must be vigilant to
       ensure that the report contains an accurate portrayal of the contractor’s
       performance. The past performance reports are a tool for use by the CO and



                                                                                               7
           COR in order to incentivize contractors to provide USAID with superior products
           and services.

There are other actions that USAID can take to correct problems that may arise during
performance. For example, the CO may issue a cure notice4 if inspection of the work shows that
the contractor is not performing in accordance with requirements of the contract. According to
Federal Acquisition Regulation 49.4, “Termination for Default,” termination for default is
“generally the exercise of the Government’s contractual right to completely or partially terminate
a contract because of the contractor’s actual or anticipated failure to perform its contractual
obligations.” Also:

           The Government has the right . . . to terminate the contract completely or partially
           for default if the contractor fails to . . . make progress and that failure endangers
           performance of the contract. . . . If the termination is predicated upon this type of
           failure, the contracting officer shall give the contractor written notice specifying
           the failure and providing a period of 10 days (or longer period as necessary) in
           which to cure the failure.

As early as November 2012, the COR documented that key deliverables were overdue. The
COR continued to raise nonperformance issues with RTI in numerous conference calls,
including in April 2013 when a conference was held with RTI officials to discuss USAID/Haiti’s
“dire concerns” about the continued delay in providing key deliverables and the quality of the
deliverables. The COR concluded at that time that the contract was “non-functioning.”

However, despite these ongoing concerns, USAID/Haiti’s CO did not take additional steps to
clarify USAID’s expectations with RTI so it could correct the problems. For example,
USAID/Haiti did not complete the annual CPARS for RTI when it was due in August 2013; as of
March 2014, the COR and the contracting office were still finalizing it.

Staffing issues within USAID/Haiti’s contracting office may have contributed to the delayed
action in this case. However, the CO said that since he arrived in May 2013, the mission had
added two additional COs, which should allow the office to act more swiftly.

USAID/Haiti has maintained consistently that the main causes for the delays in implementation
have been the poor quality of RTI’s work resulting from its lack of qualified experienced staff.
However, unless USAID/Haiti’s CO is actively involved in clarifying the mission’s expectations,
requiring RTI to correct the problems, and confirming that the CPARS accurately portrays RTI’s
performance, the project’s implementation is not likely to improve. To address these problems,
we make the following recommendations.

      Recommendation 7. We recommend that USAID/Haiti complete the Contractor
      Performance Assessment Report for RTI International in accordance with Automated
      Directives System 302.

      Recommendation 8. We recommend that USAID/Haiti’s contracting officer give RTI
      International a written notice that it implement a written plan that corrects the
      nonperformance issues in time to meet the contract’s delivery requirements.



4
    In contract law, this is issued to “cure” or fix a problem.


                                                                                                   8
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Haiti agreed with all eight recommendations. Based on comments from the mission and
supporting documentation, management decisions have been reached on all eight, with final
action taken on Recommendations 1 through 2 and 4 through 7. Our detailed evaluation of
management comments follows.

Recommendation 1. USAID/Haiti decided to and has worked with RTI to clarify and document
expectations of the development of curricula and materials. RTI submitted a document that
clarified those expectations, and the mission approved it in April 2014. We acknowledge the
mission’s management decision and final action on this recommendation.

Recommendation 2. USAID/Haiti decided to ask RTI for an updated staffing plan confirming
that RTI hires employees with the appropriate experience in developing curricula and materials.
RTI submitted the plan, and the mission approved it in April 2014. We acknowledge the
mission’s management decision and final action on this recommendation.

Recommendation 3. USAID/Haiti decided to ask RTI for a mitigation plan that addressed
project delays and weaknesses in implementation. RTI submitted it in May 2014, and the
mission provided feedback. The mission expects to approve the revised plan by August 30,
2014. We acknowledge the mission’s management decision on this recommendation.
 
Recommendation 4. USAID/Haiti decided to and has worked with RTI on an updated work plan
that linked all deliverables and activities to the contract’s requirements, standards, and
milestone payment schedule. This process was completed in April 2014. We acknowledge the
mission’s management decision and final action on this recommendation.

Recommendation 5. USAID/Haiti decided to instruct RTI to report on each of the project’s
performance indicators. In response, RTI included all the requested data in its annual report
submitted on June 15, 2014. We acknowledge the mission’s management decision and final
action on this recommendation.

Recommendation 6. USAID/Haiti decided to instruct RTI to implement procedures for
recording accurate data for participants who successfully completed training. The COR gave
RTI technical directions to carry this out in June 2014. We acknowledge the mission’s
management decision and final action on this recommendation.

Recommendation 7. USAID/Haiti decided to complete the CPARS for RTI and did so in
June 2014. We acknowledge the mission’s management decision and final action on this
recommendation.

Recommendation 8. USAID/Haiti decided to give RTI a written notice requesting them to
addresses nonperformance issues. The contracting officer expects to send the notice by August
30, 2014. We acknowledge the mission’s management decision on this recommendation.




                                                                                             9
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Haiti’s education activities are
achieving their main goal of helping the Haitian Ministry of Education develop and test an
instructional model to improve the reading skills of children in first through third grades in
USAID/Haiti’s development corridors.

In planning and performing the audit, the team assessed significant management controls the
mission used to manage the project and confirm that it provided adequate oversight. The team
reviewed USAID/Haiti’s activity approval document, operational plan report, fiscal
year 2013 annual self-assessment of management controls (which the mission is required to
perform to comply with the Federal Managers’ Financial Integrity Act), award and modification
requirements, and PMP. As of December 31, 2013, the mission had obligated $9 million and
disbursed $8 million. The allocated amount represents the amount tested.

The audit covered project activities from August 2012 through March 31, 2014. We reviewed
applicable laws and regulations as well as the following USAID policies and procedures
pertaining to the project; ADS 103, 200, 201, 202, 204, 302, 320, and USAID’s Policy Guide for
Assessment and Use of Contractor Performance and Integrity Information. The audit relied on
the following sources of evidence: interviews with employees of USAID/Haiti, the Haitian
Government, and implementing partners RTI, CARE International in Haiti, CARITAS, Concern
Worldwide, UNICEF, and World Bank; and documentation maintained at the mission. The audit
team conducted fieldwork in Haiti from February 10 through February 28, 2014, and conducted
site visits to 15 schools in the development corridors.

Methodology
To answer the audit objective, we conducted interviews and site visits, and we evaluated the
mission’s management and oversight of the program, the performance of the implementing
partners, and the effectiveness of activities. We met with officials from USAID/Haiti, the Haitian
Government, RTI, CARE International in Haiti, CARITAS, Concern Worldwide, UNICEF, and the
World Bank.

Through these interviews and the review and analysis of project documentation, the audit team
obtained an understanding of (1) the project’s goals, (2) how the mission designed, procured,
implemented, and provided oversight of the project, and (3) whether the mission is aware of any
allegations of fraud or other potential illegal acts or noncompliance with laws, regulations, and
agreement terms.

In addition, we performed the following audit tests:




                                                                                               10
                                                                                        Appendix I


	 Documented and tested compliance with gender analysis, human trafficking, and
   sustainability.

	 Tested for accuracy the results reported in the September 2013 annual report.

We selected site visit locations judgmentally, based on our ability to travel to field locations in
order to meet with schools in each of the three development corridors that could give us
qualitative feedback on the project’s activities. Since we based the testing and site selections on
judgmental samples, the results and conclusions related to the analysis were limited to the
items and areas tested and cannot be projected to the entire population. We believe our
substantive testing was sufficient to support the audit’s findings.




                                                                                                11
                                                                                    Appendix II



MANAGEMENT COMMENTS 

                                 ACTION MEMORANDUM


TO:                   John Chasson, Regional Inspector General

THROUGH:              Christian Barratt, Deputy Mission Director

FROM:                 Mark A. White, Acting Mission Director /s/

DATE:                 June 27, 2014

SUBJECT:              Mission response to the draft report of audit of USAID/Haiti’s Education
                      Activities (RIG draft Report No. 1-521-14-00X-P)

 
This memorandum represents USAID/Haiti’s actions taken to address and reach the management
decisions for the recommendations reported in the draft Audit of USAID/Haiti’s Education
Activities/ RIG Report No. 1-521-14-00X-P. The mission agrees with all eight
recommendations. The responses to these recommendations are below.


Recommendation 1. We recommend that USAID/Haiti clarify and document with RTI
International the mission’s specific expectations regarding the further development of curricula
and materials.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: In
April 2014, the Contracting Officer requested from RTI a document presenting requirements and
standards for the development of ToTAL (Tout Timoun Ap Li) curricula and instructional
materials. RTI submitted the document entitled, “USAID/Haiti ToTAL Materials Development
Requirements/Standards”. This document was submitted on April 28, 2014 and approved by
USAID. This document includes input from USAID and is based on international standards
developed by RTI for USAID under Ed Data II, Blanket Purchase Agreement. In addition, it
provides clarity for all parties regarding expectations regarding development of curricula and
materials.

Plan of Action and timeline:

This action was taken in April 2014




                                                                                             12
                                                                                     Appendix II


Recommendation 2. We recommend that USAID/Haiti require RTI International to complete a
staffing plan to confirm the project has employees with appropriate experience in curriculum
materials development and implementation.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: In
April 2014, the Contracting Officer requested that RTI present an updated staffing plan. This
plan was received on April 25, 2014 and was approved by USAID. This document includes an
organizational chart and position descriptions. The staffing plan confirms that employees hired
should have the appropriate experience in development of curricula and materials.

Plan of Action and timeline:

This action was taken in April 2014


Recommendation 3. We recommend that USAID/Haiti require RTI International to implement a
plan to mitigate the negative impact on the project’s research findings of not fully implementing
community-based activities for Treatment 2 schools or conducting adequate ongoing teacher
monitoring.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: In
April 2014, the Contracting Officer requested that RTI present a mitigation plan that addresses
the fact that the project has faced delays and weaknesses in implementation. This plan was
submitted on May 9, 2014. USAID has provided feedback and RTI is currently revising the plan.

Plan of Action and timeline:

This action was taken in April 2014 and RTI will submit the plan in June 2014. RTI has
committed to send final revised version on July 15, 2014.


Recommendation 4. We recommend that USAID/Haiti in conjunction with RTI International
implement a detailed work plan that links each of the contract’s performance requirements,
standards, and deliverables to the milestone payment schedule.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: In
April 2014, the Contracting Officer requested that RTI present an updated work plan linking all
deliverables and activities to contract’s requirements, standards and milestone payment schedule.
This updated work plan was submitted on April 14, 2014.




                                                                                              13
                                                                                    Appendix II



Plan of Action and timeline:

This action was taken in April 2014; upcoming work plans will keep this updated format
including deliverables, standards and milestones.


Recommendation 5. We recommend that USAID/Haiti work with RTI International to review
and revise as appropriate each of the 17 performance indicators, implement targets for each
indicator, and instruct RTI International in writing to collect data and report progress made
against each of the performance indicators, including disaggregating data by development
corridor and gender in quarterly progress reports.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: In
November 2013, the Contracting Officer Representative requested that RTI report on
performance indicators in their Annual Report. The report was resubmitted to USAID in March
10, 2014. However it still did not provide a full report on performance indicators. The last
version of the Annual Report was submitted on June 15, 2014 and incorporated all requested
data. Year 2 end line data for EGRA and SSME has been collected during the months of May
and June 2014, and the final report, to be submitted in October 2014, will provide complete data
for Agency reporting.

Plan of Action and timeline:

This action was taken as of November 2013, final revised Annual Report with expected reporting
on all performance indicators was received on June 15, 2014.


Recommendation 6. We recommend that USAID/Haiti instruct RTI International in writing to
implement procedures for recording accurate data for participants who successfully complete
training.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: The
Contracting Officer Representative provided technical directions on June 26, 2014 to RTI for the
implementation of procedures for recording accurate data for participants who successfully
complete training.

Plan of Action and timeline:

This action was taken in June 2014




                                                                                             14
                                                                                    Appendix II


Recommendation 7. We recommend that USAID/Haiti complete the Contractor Performance
Assessment Report for RTI International in accordance with Automated Directives System 302.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it in the following manner:
CPAR was entered in the system in June 2014 for the period of August 2012 to March 2014. The
Contracting Officer has taken action to complete the performance assessment report for
RTI/ToTAL

Plan of Action and timeline:

This action was taken in June 2014


Recommendation 8. We recommend that USAID/Haiti’s contracting officer give RTI
International a written notice requesting them to implement a written plan that will correct the
contract nonperformance issues in time to meet the delivery requirements of the contract.

Mission response:

USAID/Haiti agrees with the recommendation and has addressed it by requesting a mitigation
plan from the Contractor addressing non-performance issues. A draft was received on May 9,
2014. The COR requested changes to the plan. A final plan is due from the Contractor on June
30, 2014. The plan will ensure that the Contractor corrects contract nonperformance issues in
order to meet all the delivery requirements.

Plan of Action and timeline:

This action was taken in April 2014.




                                                                                             15
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
